No. 20-

 

IN THE SUPREME COURT OF THE UNITED STATES

 

SONYA PORTER,
Petitioner,
v.

COMMONWEALTH OF PENNSYLVANIA,
Respondent.

 

ON PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME COURT OF
PENNSYLVANIA

 

CERTIFICATE OF WORD COUNT

 

As required by the Supreme Court Rule 33, I certify that the Petition for a Writ
of Certiorari to the Supreme Court of Pennsylvania was prepared using Century
Schoolbook 12-point typeface and contains 5,937 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33. This certificate was
prepared in reliance on the word-count function of the word-processing system used
to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 7, 2020.

Respectfully Submitted:

AC. xo
STEVEN A. TEHOVNIK BRANDON P. GING

Assistant Public Defender Deputy — Appeals Division
*Counsel of Record

ALLEGHENY COUNTY OFFICE OF THE PUBLIC DEFENDER
#400 County Office Building, 542 Forbes Avenue
Pittsburgh, PA 15219
(412) 350-2473
